OIG Investigative Reports, Concord, NH., October 21, 2011 - Allenstown Man Sentenced To 36 Months For Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF NEW HAMPSHIRE
NEWS
Allenstown Man Sentenced To 36 Months For Mail Fraud
FOR IMMEDIATE RELEASE
October 21 2011
CONCORD, N.H. – Daniel J. Rinaldi, 39, of Allenstown, New Hampshire was sentenced in United States District Court for the District of New Hampshire to 36 months in prison for mail fraud, announced United States Attorney John P. Kacavas.
While employed as a tax manager for a medical supply company in Waltham, MA in 2008, Rinaldi falsely informed the company that an entity known as Affiliated Computer Systems  (ACS) collected overdue tax payments for state taxing agencies.  ACS actually collects overdue student loan payments on behalf of the U.S. Department of Education.  Using false invoices, Rinaldi caused the medical supply company to mail checks totaling more than $140,000 to ACS. Those checks were then credited as payments to his personal student loan account.
Using similar fraudulent tactics, Rinaldi caused the medical supply company to mail payments totaling more than $1700 to the Vermont Department of Taxation, which were falsely applied to his personal tax account in that state.  Rinaldi also caused the medical supply company to make unnecessary tax payments totaling more than $205,000 and $27,200 to the Massachusetts Department of Revenue and the New Hampshire Department of Revenue, respectively.  Thereafter, he claimed that some of the payments had been made in error and fraudulently caused the taxing agencies to provide refunds totaling more than $119,200 directly to him.
While employed as a tax manager for an engineering company in Andover, MA in 2010, Rinaldi caused the company to make unnecessary tax payments totaling more than $364,000 and $213,000 to the Massachusetts Department of Revenue and the New Hampshire Department of Revenue Administration, respectively.  Thereafter, he claimed that some of the payments were made in error and fraudulently caused the taxing agencies to provide refunds totaling more than $378,000 directly to him.
The case was investigated by the United States Postal Inspection Service, the  New Hampshire Attorney General’s Office and the United States Department of  Education, Office of Inspector General and prosecuted by Assistant United States Attorney Robert Kinsella.
Top
Printable view
Last Modified: 11/22/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov